BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief of
Amici Curiae Representative Claudia Tenney and 175
Additional Members of the U.S. House of
Representatives in Support of Petitioners in 20-843,
New York State Rifle & Astol Association, Inc., et al.
v. Kevin P. Bruen, in His Official Capacity as Acting
Superintendent of New York State Police, et al. were
sent via Next Day Service to the U.S. Supreme Court,
and 3 copies were sent via Next Day and e-mail service
to the following parties listed below, this 19th day of
July, 2021:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Counsel for Petitioners
Barbara Dale Underwood
Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
Barbara. underwood@ag.ny.gov
(212) 416-8016

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Brian D. Schmalzbach
Counsel of Record
Matthew D. Fender
John J. Woolard
MCGUIREWOODS LLP
Gateway Plaza
800 East Canal Street
Richmond, VA 23219
T: (804) 775-4746
bschmalzbach@mcguirewoods.com

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 19, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:
~

0v LJ. _1
I

I

-

Notary Public ----[seal]

AMY TRIPLETT MORGAN

Attorney at Law
Notary Public, State of Ohio
My Commission Has-No Expiration
Date. Section 147.03 0.R.C.

